 

GrorcGIA DEPARTMENT OF LAW
40 Capitol Square SW

CHRISTOPHER M. CARR . www.law.ga.gov
SRORNEV GENER AT Atlanta, Georgia 30334-1300 (404) 656-3300
Writer’s Direct Dial:
404-458-3239

Fax: 404-651-6459
December 2, 2020

Honorable Scott Harris

Clerk of the United States Supreme Court
1 First Street, N.E.

Washington, D.C. 20543

RE: Richard L. Sealey v. Benjamin Ford, Warden
Case No. 20-6294

Dear Mr. Harris:

Respondent Warden’s counsel respectfully requests a 60-day extension for filing his brief in
opposition to the petition for writ of certiorari. Respondent’s brief is currently due in this Court
on December 14, 2020. Undersigned counsel currently has oral arguments scheduled in the
Eleventh Circuit Court of Appeals on December 18, 2020 (Demarcus Ali Sears v. GDCP,
Warden, Case No. 18-13467) and January 26, 2021 (Willie James Pye v. GDCP, Warden, Case
No. 18-12147). Given this responsibility, a 60-day extension until February 11, 2021, would
ensure that counsel for Respondent has adequate time to properly respond to Sealey’s petition for
writ of certiorari. Opposing counsel does not oppose the request.

Sincerely,
s/Sabrina Graham

Sabrina Graham
Senior Assistant Attorney General

ec: Jill Benton,
